<html>
<title> - NOMINATION OF CAROL F. OCHOA</title>
<body><pre>[Senate Hearing 114-402]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-402
 
                      NOMINATION OF CAROL F. OCHOA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

   NOMINATION OF CAROL F. OCHOA TO BE INSPECTOR GENERAL, U.S GENERAL 
                        SERVICES ADMINISTRATION

                               __________

                             JUNE 17, 2015

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        






                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 98-881 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 



        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                  Christopher R. Hixon, Chief Counsel
Gabrielle D'Adamo Singer, Deputy Chief Counsel for Governmental Affairs
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
        Deirdre G. Armstrong, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Heitkamp.............................................     2
    Senator Ernst................................................     7
    Senator Baldwin..............................................     8
    Senator McCaskill............................................    10
    Senator Peters...............................................    12
Prepared statement:
    Senator Lankford.............................................    17
    Senator Heitkamp.............................................    19

                               WITNESSES
                        Wednesday, June 17, 2015

Carol F. Ochoa, to be Inspector General, U.S. General Services 
  Administration
    Testimony....................................................     3
    Prepared statement...........................................    21
    Biographical and financial information.......................    23
    Letter from the Office of Government Ethics..................    43
    Responses to pre-hearing questions...........................    45
Letters of support...............................................    62


                      NOMINATION OF CAROL F. OCHOA

                        WEDNESDAY, JUNE 17, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:05 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford, presiding.
    Present: Senators Lankford, Ernst, Sasse, Heitkamp, 
McCaskill, Baldwin, and Peters.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Good afternoon. Today we will consider 
the nomination of Carol Ochoa for the position of Inspector 
General (IG) of the General Services Administration (GSA).
    The Offices of the Inspector General (OIG) were established 
in 1978 by Congress to protect the integrity of the agencies 
they serve. Inspectors General do this by rooting out and 
reporting on waste, fraud, and mismanagement so that agencies 
may effectively carry out their responsibilities and fulfill 
their missions in service to the American people.
    As frontline watchdogs for the hardworking taxpayer, 
Inspectors General play a critical role in congressional 
oversight. Earlier this month, we stressed the importance of 
efficiently nominating and confirming competent Inspectors 
General at a Committee hearing here in this same room. The 
Committee and my Subcommittee take Inspector General 
nominations incredibly seriously, and so we are pleased to have 
a strong nominee before us.
    Oversight of the General Services Administration requires 
particular competencies and poses unique challenges. GSA 
currently oversees $240 million in taxpayer dollars to provide 
real estate, acquisition, and technology services to the 
Federal Government and American people, as well as that real 
property issue that has been an issue for a long time. If 
confirmed by the Senate, Ms. Ochoa would be responsible for 
oversight of several high-profile issues at the agency, 
including strategic sourcing, Federal procurement, management 
of the agency's real property portfolio, and a variety of 
information technology (IT) initiatives.
    As we have learned through previous IG investigations, 
including the infamous 2010 GSA Las Vegas conference, oversight 
of this vast administrative bureaucracy requires an Inspector 
General that is intelligent, tenacious, objective, and 
independent. We have found Ms. Ochoa to be exceptionally 
qualified for the position in all these respects.
    Ms. Ochoa is a native of Youngstown, Ohio. She received a 
Bachelor of Arts degree from Miami University and a law degree 
from the George Washington University School of Law. After 
graduation, Ms. Ochoa clerked for Chief Judge Charles Clark on 
the Fifth Circuit Court of Appeals. After working as a 
litigation associate at Covington & Burling, Ms. Ochoa served 
in the United States Attorney's Office for the District of 
Columbia, as well as for James McKay's Office of Independent 
Counsel.
    In 2002, Ms. Ochoa joined the Department of Justice's (DOJ) 
Office of the Inspector General, where she served as the 
Director of the Office's Oversight and Review Division, before 
her promotion to the position of Assistant Inspector General in 
the Office's Oversight and Review Division. She has served as 
the Assistant Inspector General since 2005.
    In addition to her impressive resume, Ms. Ochoa exhibits 
integrity befitting an Inspector General. Subcommittee staff 
reached out to a variety of Ms. Ochoa's colleagues, who spoke 
highly of her. They ascribed to Ms. Ochoa characteristics that 
will serve her and Congress and the Federal taxpayer well in 
her position as GSA's Inspector General: intelligence, 
studiousness, impartiality, objectivity, and a skilled 
management style.
    Staff from both sides of the aisle had the opportunity to 
interview Ms. Ochoa on an array of issues, ranging from her 
past accomplishments to her future priorities at GSA were she 
to be confirmed as Inspector General. She thoughtfully and 
competently answered each question to the Committee's 
satisfaction, including my own.
    Given that the Committee has found Ms. Ochoa to be 
eminently qualified to be GSA's Inspector General, I look 
forward to speaking with her a bit more today on her 
accomplishments and ideas of how she will improve the GSA's 
Office of the Inspector General, as well as GSA at large.
    I would recognize the Ranking Member, Senator Heitkamp, for 
any kind of opening statement she would like to make as well.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and welcome. I 
can see some beaming family members behind you who, as the 
Chairman was reading your list of very incredible 
accomplishments, the smiles just got bigger and bigger. I know 
you cannot see them from there, and this can be somewhat nerve-
racking, but just know that you have a lot of proud family 
members here.
    Senator Lankford. I am going to give you a moment to be 
able to introduce all them in just a moment as well.
    Senator Heitkamp. OK. I want to say how much I enjoyed our 
discussion in the office and how grateful we are that you are 
willing to undergo this process, that you are willing to step 
forward. One of the issues that Senator Lankford and I deal 
with quite a bit is how we are going to modernize and attract 
great talent to the Federal workforce. And, obviously, your 
stepping forward gives us hope for the future that other people 
will follow your path, and find a career in public service. But 
I want to say ditto to everything the Chairman just said.
    I am going to leave that at my opening statement and ask 
that the rest of it be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Heitkamp appears in the 
Appendix on page 19.
---------------------------------------------------------------------------
    Senator Lankford. That is great.
    It is the custom of this Committee to swear in all 
witnesses that appear before us, so if you do not mind, we 
would like to ask you to stand and raise your right hand. Do 
you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Ochoa. I do.
    Senator Lankford. Thank you. You may be seated.
    Let the record reflect the witness answered in the 
affirmative.
    Ms. Ochoa, you have some guests that you brought with you. 
Would you like to introduce any of those before we ask you to 
be able to give your opening statement?
    Ms. Ochoa. Thank you, Mr. Chairman. I would like to do 
that.
    I do want to thank my family members who are here today: 
first of all, my husband, Jorge, who is my constant support in 
all things. And I have many members here today of the large and 
loving Fortine, Ochoa, and Collier families. I think I will 
mention by name only the youngest ones here: my niece, 
Christine Fortine, from Canfield, Ohio; nephew J. Michael 
Ochoa, from McLean, Virginia; Isabelle Bettinger, from 
Columbus, Ohio; and Audrey Collier, from Fairfax, Virginia.
    Senator Lankford. That is great. Thank you. I will be glad 
to be able to receive your opening statement at this time.

 TESTIMONY OF CAROL F. OCHOA,\2\ TO BE INSPECTOR GENERAL, U.S. 
                GENERAL SERVICES ADMINISTRATION

    Ms. Ochoa. Thank you. Mr. Chairman, Ranking Member 
Heitkamp, Members of this Committee, thank you for holding this 
hearing today. I am honored to be nominated to serve as the 
Inspector General at the General Services Administration. I 
very much appreciate the time that Members of this Committee 
and their staffs took to meet with me in advance of the 
hearing. If confirmed, I look forward to continuing that 
dialogue.
---------------------------------------------------------------------------
    \2\ The prepared statement of Ms. Ochoa appears in the Appendix on 
page 21.
---------------------------------------------------------------------------
    In addition to my family, I am very appreciative to be 
joined here as well by colleagues from the Department of 
Justice Office of the Inspector General and by friends from my 
days in the U.S. Attorney's Office. And I would like to 
recognize the staff at the General Services Administration 
Office of the Inspector General and, in particular, Deputy 
Inspector General Robert Erickson, who has ably managed the 
office over the past year when the agency has been without a 
confirmed Inspector General.
    In this time of pressing need to eliminate waste and cut 
costs for the American taxpayer, the position of GSA Inspector 
General is very important. GSA's extensive real property 
portfolio and governmentwide procurement programs put it at the 
forefront of efforts to cut costs and achieve cost avoidance 
for the American taxpayer, and the GSA IG has a critical role 
in ensuring that the taxpayer receives maximum value from the 
GSA's operations.
    I am confident that my professional experience has equipped 
me well for this position. I have spent over 25 years as a 
Federal prosecutor and as a manager in the Department of 
Justice Office of the Inspector General.
    I served as a prosecutor for over a decade in the Public 
Corruption Section of the U.S. Attorney's Office here in 
Washington, DC. There I was entrusted with some of the office's 
most sensitive cases, including police corruption, obstruction 
of justice, and complex fraud and embezzlement matters.
    At the DOJ OIG, I have been privileged to head for the past 
12 years the Oversight and Review Division, which is 
responsible for conducting the most complex, sensitive, and 
broad-ranging reviews and investigations of Department of 
Justice operations and personnel, many of them classified 
matters involving the Department's use of national security 
authorities.
    During this time I have benefited tremendously from working 
closely with two highly respected Inspectors General: 
Department of Justice IG Michael Horowitz and his predecessor, 
Glenn Fine. Their leadership and the work of my extremely 
talented colleagues has resulted in an IG's office with a 
strong and well-deserved reputation for independence and 
objectivity. I believe those qualities are absolutely essential 
for a successful Inspector General, and if confirmed, I would 
commit to ensuring that under my leadership, the GSA OIG will 
be independent, objective, and as transparent as possible in 
everything we do.
    I have a strong memory that when I was sworn in as an 
Assistant United States Attorney, the U.S. Attorney emphasized 
Justice Sutherland's admonition that a prosecutor's role is not 
to win cases but to serve justice, and that a prosecutor may 
strike hard blows but not foul blows. Those words were 
foundational in my development as a prosecutor, and that 
standard of fairness and impartiality has guided me as well in 
my work with the Office of the Inspector General. Simply put, I 
am used to following the facts wherever they lead, closely 
analyzing their fit with law and policy, and making conclusions 
based solely on and drawn fairly from those findings. That is 
the mindset I would bring to this job, if confirmed.
    I appreciate your consideration, and I look forward to 
answering any questions you may have.
    Senator Lankford. Thank you. I am going to ask several 
brief questions. Then I will come back around a second time and 
give some others some time.
    We have three questions that we ask candidates as they go 
through the process. I will give you the first. Is there 
anything that you are aware of in your background that might 
present a conflict of interest with the duties of the office to 
which you have been nominated?
    Ms. Ochoa. No.
    Senator Lankford. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Ochoa. No,
    Senator Lankford. Do you agree without reservation to 
comply with any request or summons and to appear to testify 
before any duly constituted Committee of Congress if you are 
confirmed?
    Ms. Ochoa. I do.
    Senator Lankford. Let me say one quick statement and ask 
one follow-up question. One is, to your family and to you, this 
is a very difficult, long process. As Senator Heitkamp had 
mentioned, we want the best of the best to do this. It should 
not be hard. It should be thorough. But it should not be 
painful in the process, and I hope it has been a good process 
to go through.
    But I would say to you on the other side of this, this 
Congress is very dependent on very independent, very gifted, 
and tenacious Inspectors General. You are the eyes and ears of 
the American taxpayer in a way that no one else can see. 
Committee staff will not see it; other individuals within GSA 
will not see it. Uniquely, the IG has that view, and we would 
be very interested in strict independence--not political, not 
loyal to any administration; loyal to the taxpayer. You know as 
well as I do--you have been around Washington long enough--that 
when a crisis breaks, they go typically to the Inspectors 
General to say, ``Why didn't you see this in advance?'' and to 
the Government Accountability Office (GAO) and say, ``Was there 
a report? Did you go see these things?'' So that role is 
extremely important.
    So my question to you is: The tenacity and the 
independence, do you feel ready to be able to take that on, as 
you said, not to hit foul but to hit hard in the process, feel 
that you are at a position right now to say, ``I am willing to 
be able to step in and to be fair in a group, but to also make 
sure the taxpayer and the individuals within the agency are 
also protected?
    Ms. Ochoa. I do feel ready to do that, Chairman Lankford. I 
think that that is the life I have been living for the past 12 
years with the OIG for DOJ, and I am committed to carrying that 
same standard of independence and excellence forward to GSA.
    Senator Lankford. Great. Thank you.
    Let me defer to Senator Heitkamp.
    Senator Heitkamp. I want to just for a moment talk a little 
bit about the process that you went through, and I was, quite 
honestly, shocked when you came to my office, and I said, 
``Well, how long have you been at this?'' Almost 2 years, is 
that correct, Ms. Ochoa?
    Ms. Ochoa. Yes. The process started for me in late October 
2013 when the Council for Inspectors General put my name 
forward as a candidate for an Inspector General position.
    Senator Heitkamp. Well, we would be very curious, having 
now gone through it, and looking at your record of 
accomplishments. And I know that someone with your 
accomplishments also thinks about reforms and what would make 
that process easier. And so I am curious about what you thought 
along the way would have made it much easier, so thank goodness 
you stuck with it. But I think a lot of people fall off because 
they are not in a position like yours here you can keep your 
day job and wait for this process and this confirmation process 
to go forward. They have to eventually make a decision and move 
on with their life.
    And so I am curious about, given your experience, what 
recommendations you would make to this body in terms of 
clearing the hurdles. Maybe as Senator Lankford said, we do not 
want shortcuts taken, but we do not want excessive periods of 
time without real value added to the process being experienced 
by our nominees. So I am curious what recommendations you would 
make.
    Ms. Ochoa. Thank you, Senator. As you mentioned, this 
process was long for me, but I was fortunate to be in a 
supportive environment, working in an IG's office with a very 
strong IG who promotes getting more IGs out there.
    In terms of recommendations, I can tell you that when Brian 
Miller resigned from his position as GSA IG in April 2014, I 
did make a very strong expression of interest in this position, 
and from that time forward, the process moved along. I was 
nominated in March 2015, and then this Committee moved very 
quickly, which I really appreciate. To go from nomination to a 
hearing in the short period of time I much appreciate.
    The reason for the process taking so much longer up to that 
point I am not entirely sure of. I know that the people I was 
working with in the Office of Presidential Personnel were very 
courteous, very professional, very much determined to find good 
candidates. It seemed to me that they were a small office with 
a lot of jobs to fill, and so the question may be better 
directed to them. Do they need more resources?
    Senator Heitkamp. I think it is curious, because you were 
in such a position of authority and responsibility before you 
were nominated for this position. A lot of that background 
material probably had already been done. A lot of the kind of 
analysis in terms of your capability to do this type of work 
had already been done, and so it was a little discouraging.
    We have held a number of hearings throughout both the 
Committee, the Committee as a whole, and this Subcommittee on 
issues involving government efficiency and government 
responsibility as it relates to property management, as it 
relates to kind of overall oversight of other agencies.
    What complications do you see coming from DOJ where you are 
looking at an agency in and of itself to an agency that really 
has a broader responsibility for all of government? What kind 
of complications do you see kind of moving into this new role, 
both in terms of size and scope?
    Ms. Ochoa. That is a good question. I do not know that I 
would call them complications so much as challenges perhaps. 
GSA does have a leadership role in a lot of Federal 
Governmentwide initiatives, including on the Federal real 
property side, as you mentioned. And the contracting authority 
is massive. I mean, the amount of taxpayer dollars going 
through there is a large number.
    I see that part of my job will be to coordinate with other 
oversight authorities so that the GSA OIG can look deeply at 
what GSA is doing itself in the leadership role to implement 
these initiatives, what policies it has in place, what 
strategies it is using, whether it is meeting its own measures 
and milestones, whether it has a contracting work up to snuff 
considering the sophisticated workforce they are up against in 
the private industry. And I see coordinating with entities like 
GAO, which has the broader picture of how all the other Federal 
agencies are contributing to the efforts to, for example, 
Freeze the Footprint, dispose of excess property, and so forth.
    Senator Heitkamp. I think why you see other Members here is 
how significant we see the role of the Inspector General to the 
overall safety and soundness and fraud watch in the U.S. 
Government, and I think the President has made an excellent 
choice in advancing you. We are grateful to have you, and from 
my part, I just want to extend our assistance. This Committee 
exists to assist the IGs, as the Chairman has said. It is there 
to get input from the IGs, and we should be your partner, your 
oversight partner, as you look at the functions of the agency 
going forward.
    And so I want you to know you always have an open door to 
this Committee and certainly to us individually as you begin to 
explore and look at not just reporting what you see, but maybe 
thinking beyond that on what kinds of things can be done that 
could prevent bad things from happening in the future and to 
create greater efficiencies in government. And so thank you 
again. We look forward to your work and seeing your work 
product as the months go on.
    Ms. Ochoa. Thank you.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Lankford. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman and Ranking Member. 
I appreciate this opportunity very much.
    Ms. Ochoa, very nice to have you here. Your qualifications 
are exemplary, so I appreciate all that you have been through 
as well as your family members.
    There are numerous challenges, and you have mentioned 
Freeze the Footprint and some of these other significant 
initiatives that we have across the government. And so I am 
just going to talk about very briefly just two issues that I 
have seen in recent weeks, and then if you can just expound a 
little bit further. But the first is that we are focusing also 
on real property. You mentioned Freeze the Footprint. And one 
thing that I have spent a lot of time on is taking a look at 
the Department of Veterans Affairs (VA) and how we work with 
that organization. And there are inefficiencies everywhere, but 
really what I have seen in the last number of months has been 
the Department of Veterans Affairs, whether it is the health 
care aspect or the real property that they own, we really need 
to find a way that we can improve efficiency with the 
Department of Veterans Affairs.
    So I understand that the VA manages a significant portion 
of its own real property inventory, but to the extent that the 
GSA does work with the VA, I would want to know, if you are 
confirmed, that you would be willing to work with the VA on 
effectively utilizing those property holdings by the VA. Is 
that something that you can manage and work with them on?
    Ms. Ochoa. Yes, I can certainly work in the role of the IG 
in looking at GSA's strategy to give guidance to the VA in 
terms of keeping track of the inventory, deciding what 
properties to keep, what properties to dispose of.
    Senator Ernst. Very good. And, again, that is in your 
extent of the role of the IG, but then also just last week, the 
GSA Office of Inspector General did issue a report on the GSA's 
surplus firearms donation program, and to be honest, before 
this report, I was not aware of this particular program. I do 
not think many people are. But this report raised concerns that 
the program's inadequate data management and the inaccurate 
inventory records, which are primarily done in a paper format 
and managed by a single agency employee--huge concerns there. 
This could result in the theft or loss or unauthorized use of 
those firearms that are donated to this program. And I would 
just like to raise that issue to you, express my sincere 
concerns about this program and how it is managed. With those 
two areas, with the VA, with the surplus firearm donation 
program, and so many other issues out there, I would like to 
ask you just what do you think your greatest challenges might 
be, and how do you think you could work around those?
    Ms. Ochoa. I see a number of challenges facing GSA that the 
GSA IG has to keep track of. One of them is obviously real 
property management, and I know you have had a recent hearing 
on that. You do not need to hear from me what those problems 
are. But that is an area that I see the IG needs to be very 
observant about and to monitor closely and to work with GAO so 
that we are not duplicating or overlapping efforts in our 
respective oversight responsibilities for that area.
    I also see big challenges on the procurement side. There is 
a lot happening with GSA's procurement programs, and one major 
issue I see is this changeover to category management, which 
has the laudable goal--and GSA is part of it--has the laudable 
goal of requiring vendors to provide more transactional data so 
that government buyers can make more informed decisions. A 
laudable goal, but both industry and government folks are 
raising concerns about whether that effort has been thought 
through fully at this point. They are raising concerns about 
logistics of providing the information and exactly how GSA will 
be able to manage and analyze the information and preserve its 
security.
    So that just tells me that because both industry and 
government are raising issues, I need to be paying attention to 
that issue.
    Senator Ernst. Fantastic. I thank you very much for your 
service and your continued service as well to our Nation, so 
thank you very much.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman and Ranking 
Member, for holding this nomination hearing.
    Ms. Ochoa, thank you for being here today and for your 
willingness to serve in this incredibly important job.
    As Members of Congress and particularly as Members of this 
Committee, we exercise our oversight and legislative 
responsibilities, and we rely very heavily on IG audits, on IG 
reports, and investigations. It is critical to providing robust 
oversight over the various agencies and ensuring that we are 
being good stewards of the taxpayer dollars. So, again, I thank 
you for being willing to serve in this very important role.
    I wonder, if confirmed, if you can tell us how you would 
approach your work with Congress, given our need to rely 
heavily on IGs' work. What do you see as your priorities in 
communicating with us as Members of both this Committee and 
Members of the Senate?
    Ms. Ochoa. Thank you, Senator Baldwin. I do think that is 
an important topic. I am very aware of my dual reporting 
obligations by statute, and I think for me my goal is to have 
strong and open lines of communication with both GSA leadership 
and the oversight committees who have important work in the 
same area that I will be working in.
    And so I expect to be keeping both GSA leadership and 
Congress informed through briefings of our findings, through 
responses to written inquiries from the Committee, for example, 
by our public reports that I expect to be comprehensive and 
accurate and fair, and, of course, through the semiannual 
reporting process. And I would hope to have good lines of 
communication at the staff level as well through the 
Legislative Affairs Office at GSA OIG.
    Senator Baldwin. Excellent. In this same vein, I have the 
honor in serving on this full Committee of being the Ranking 
Member of the Subcommittee on Federal Spending and Oversight 
(FSO), and my goal, I know along with our Chairman, is to find 
areas within Federal Government where we can find efficiencies 
and cut costs. We just had a hearing last week in which we 
discussed several areas where we can reduce waste, including 
improper payments, where we can reduce duplication, and so I 
just, again, in the same vein as my first question, ask how you 
would prioritize and, based on what you know about GSA 
operations, what are some of the areas that you see initially 
that are ripe for cost savings?
    Ms. Ochoa. Well, I have mentioned already the real property 
area, which, again, you know much more about that than I do at 
this point, and the procurement side of things. What I expect 
to do, if confirmed, when I arrive at GSA OIG is to spend some 
time talking about these very issues with senior management 
there. I want to see how we are doing on the priorities that 
have already been set. I want to take a measure of whether 
resources have been directed as best as they can be, and I will 
want to have some searching conversations about what our 
priorities should be going forward.
    Senator Baldwin. On real property management--and you have 
already touched on this. Not surprisingly, our Committee 
members are very interested in this particular area. It has 
been on the GAO's high-risk list every year since 2003. And yet 
the GAO found that the GSA lacks an action plan to reduce its 
heavy reliance on leasing, and the GSA has not determined which 
leases would be good candidates for ownership investments.
    Sometimes we are tempted to ask you questions that should 
be directed to the GSA proper, but you are here right now, so 
as the watchdog for the agency, how do you plan to jump in and 
work with the GSA to tackle these difficult problems?
    Ms. Ochoa. Well, in the oversight capacity of the IG, I 
would expect to learn from GSA leadership what their strategy 
is right now. My sense is that there are some statutory issues 
that I know this Committee is interested in, but for the GSA 
IG, I would be looking at what is the plan, what are the 
measuring tools that you are going to be using, what are the 
controls you are going to put in place to make sure that you, 
GSA, are meeting those marks.
    Senator Baldwin. And, also, the GSA has struggled to 
maintain the Federal Real Property Profile, the database that 
captures all of the property that is under the control of 
Executive Branch agencies. Again, this database has, according 
to the GAO, consistently included inaccurate inventory and 
outcome information. So, again, in your role as watchdog for 
the agency, how do you plan to dive in there and make sure that 
that database is accurate?
    Ms. Ochoa. That is a good question, because obviously you 
cannot manage what you do not know you have exactly. And there 
have been longstanding problems with that portfolio. I have 
read a number of GAO reports on the issue.
    Again, from the IG's perspective, the question to GSA that 
I would be asking would be: What are you doing to make sure 
that your own data, GSA, is reliable? What are you doing in 
terms of getting out guidance to the other Federal agencies 
about what are the definitions for the criteria that go into 
that data set? Because if agencies are applying different 
definitions to the set of criteria, then you are going to be 
comparing apples to oranges, and that does not do anyone any 
good. So that would be where I would start.
    Senator Baldwin. Thank you.
    Thank you, Mr. Chairman.
    Senator Lankford. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you. Welcome to the IG community. 
As you know, this Committee has a tradition of working with IGs 
closely. My office is one that has worked very hard making sure 
that IGs have all the tools they need, not just budget but also 
independence and other tools. Oh, sorry.
    I know that you are not in a position, based on your 
written responses, to really get into the implementation of the 
System for Award Management (SAM), which is this large effort 
to combine databases on contracting. I have spent more time in 
this Committee room than I am willing to admit going through 
all of the problems with integrated acquisition environment and 
trying to make sure that this SAM was not going to be another 
IT boondoggle with a bad ending. I am worried that it is, in 
fact, an IT boondoggle with a bad ending.
    So we will wait until you are confirmed to ask you 
questions about SAM, but know that that will be something for 
which you will come back after you get the job, and we will 
have some penetrating questions for you, which I know that you 
will be able to handle with your background as a prosecutor.
    I want to spend my time today talking to you about one of 
the tools that I think is essential for IGs, and that is the 
power of testimonial subpoena. Now, I am going to put you in a 
bad spot here, but I am so frustrated with the Department of 
Justice opposition to this. You were a prosecutor for a long 
time in the U.S. Attorney's Office here in the District of 
Columbia, which means--I am going to show my bias now. That 
means you were a real prosecutor, because you guys know what 
911 calls are in the District of Columbia. The vast majority of 
the U.S. Attorney's Offices have no urgency; they decide where 
they are going to go when they follow investigations, but they 
do not have to take everything. They pick what they take.
    Now, against that backdrop, we have 72 IGs that are trying 
to root out waste and fraud for hundreds and hundreds and 
hundreds of billions of dollars versus the Department of 
Justice, who is objecting to us giving IGs testimonial 
subpoenas. And we have even gone so far as to say they can veto 
one. They will not even say it is OK when we say you get a 
testimonial subpoena, but the Department of Justice gets to 
tell an IG, ``No, you cannot do that one,'' because they are 
worried about it interfering with their investigations.
    With all due respect, the Department of Justice is busy, 
but they are not busy enough to handcuff the entire community 
of Inspectors General in this country. And so I would like to 
ask you, would you like to have the power of testimonial 
subpoena as the Inspector General at GSA?
    Ms. Ochoa. Yes, I would, very much. I think when we need 
it. It does not come up that often, but it has come up when 
Department employees leave the Department during the course of 
an investigation, and then we are unable to get them to come 
and speak to us, unless they come in voluntarily.
    Senator McCaskill. Which they are not going to do.
    Ms. Ochoa. Some have decided not to talk to us after 
leaving the Department about matters that they handled while at 
the Department, and that is the crux of the matter to me.
    Senator McCaskill. Well, I want to enlist you to a new 
assignment as an Inspector General, and that will be I want you 
to help lead the lobbying effort on your former colleagues at 
the Department of Justice so they understand that they are 
being incredibly self-centered and irresponsible by continuing 
to try to block this legislation for this important tool for 
Inspectors General, and that is the main thing I wanted to get 
out of you today, that you will help us in this effort to make 
them understand that there is--like any test in the law, you 
weigh their desire to control this process versus the benefit 
that could come to the public. And I do not think it is even 
close when you weigh it. So I will ask you to step up and be 
helpful in that regard, and hopefully we can get this last 
barrier cleared. We have gotten a lot of them cleared over the 
last 5 years. We would like to get this barrier cleared for 
testimonial subpoenas.
    Ms. Ochoa. I appreciate that, and you will have my support 
on that.
    Senator McCaskill. Great. Thank you.
    Thank you, Mr. Chairman.
    Senator Lankford. Just as a clarification on that, Senator 
McCaskill, when the candidate is discussing this with DOJ, does 
she need to use the terms ``irresponsible'' and ``self-
centered''? [Laughter.]
    Is that part of it?
    Senator McCaskill. I think that would be good.
    Senator Lankford. OK.
    Senator McCaskill. ``Selfish,'' ``irresponsible,'' ``self-
centered.'' Every investigation does not revolve around the 
Department of Justice, contrary to what they think sometimes.
    Senator Lankford. OK. Message delivered. [Laughter.] 
Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you, Ms. 
Ochoa, for being here and for testifying. This is a very 
important position. Unfortunately, we have a lot of IG 
positions that have been going unfilled for too long, and it is 
nice to see that we are moving forward. And I also want to 
thank you for coming to my office. We had an opportunity to 
have a more detailed discussion about some of the things that 
you are looking to do, and I wish you well in those endeavors. 
It is a very important position and we need to have you on the 
job giving Congress the information that we need to know how 
these departments are performing, and I look forward to working 
with you.
    I have a couple issues, one that I just wanted to get a 
sense from you. It is my understanding the GSA offers a number 
of cybersecurity solutions in purchasing programs for agencies, 
and obviously cybersecurity has become a pretty big issue 
lately, particularly with some of the breaches that we have 
seen. It seems to me that it would be an issue ripe for you to 
take a look at.
    What sort of thought have you given to cybersecurity? And 
what types of activities do you think you envision yourself 
engaging in?
    Ms. Ochoa. Thank you, Senator Peters. That is a great 
question, and it is an area that I have given some thought to. 
Cybersecurity is something we have to get right. Information 
security in the government is important, and one thing that 
strikes me as I look at that issue is that, again, it goes back 
to the contracting workforce at GSA. Those are the people that 
are vital to this effort, and security needs to be built in at 
the acquisition stage.
    So from the GSA IG position, I would want to be making sure 
that GSA is doing everything it can to attract, to train, and 
to retain contracting officers who can speak the language of 
IT, who understand what they are working with, and who can 
responsibly perform contracting responsibilities over those 
types of procurement. And that, of course, also means that as 
GSA IG, if confirmed, I would have to make sure that I am 
growing a corps of auditors who understand IT and who can 
provide meaningful audits in this area.
    Senator Peters. Good. And as you perform those audits, one 
thing that we talked about when I had a chance to spend some 
time with you, as you know, a concern of mine is that we get IG 
studies and recommendations, and yet there is not necessarily 
the follow-through with the agencies, and some of the 
recommendations that are made do not actually get implemented.
    Do you have any idea or any suggestions for us here in 
Congress how we can strengthen the ability to make sure that 
when you have findings, we actually do something with those 
findings and the agencies actually implement the 
recommendations that you make? What would you like to see us 
do--I guess is my question--to help you?
    Ms. Ochoa. Thank you for that question. I do think it is 
helpful when Congress requests and IGs provide information on 
priority recommendations that remain unfulfilled. That in 
itself brings higher visibility to those recommendations and 
may prompt agencies when we are about to report to Congress on 
unfulfilled recommendations to go ahead and do what they can to 
try to close some out. So that is helpful.
    Senator Peters. So the work of this Committee to continue 
to highlighting your work is going to be necessary in order to 
actually see these actions taken, the things that you are 
recommending.
    Ms. Ochoa. I think it is helpful. I think the onus is also 
in part on the IGs themselves to follow through on the 
recommendations, to keep a tickler system, to go back to the 
agency and to say, ``Where are you?'' and ``Here is what we 
think about where you are and what you still need to do.''
    Senator Peters. And is that what you intend to do? You are 
going to be aggressive in going after them?
    Ms. Ochoa. I do intend to be as aggressive there as I have 
been at DOJ.
    Senator Peters. That leads me to actually my last question 
on the DOJ, because you worked with Inspectors General Horowitz 
and Fine who were there, and I know you worked very closely. 
Now that you are seeking this new position, what are some of 
the top lessons that you learned from working with them that 
you hope to bring to your work at the GSA?
    Ms. Ochoa. There are a lot of things I could talk about 
with respect to both men, and they really have been invaluable 
to me in thinking about this job. I will just try to pick out 
one thing for each.
    Senator Peters. Yes, just one thing that you are going to 
be taking with you, should you get confirmed to this new 
position.
    Ms. Ochoa. Sure. IG Horowitz I think has been a real 
example of how to fulfill the dual reporting requirement. He 
really works very hard to make sure he has those open lines of 
communication both with Congress and with Department 
leadership, and that is an example that is important for me.
    IG Fine had just an incredible laser focus on the mission 
he was seeking to fulfill and was just incomparable in terms of 
how he was able to focus on the work day in and day out of the 
office and make sure that it was independent, accurate, and as 
fair as possible.
    Senator Peters. Well, good. We look forward to working with 
you, Ms. Ochoa. We wish you much success, and it is a pleasure 
to have an opportunity to get to know you. Let me know how we 
can be helpful to you in your work.
    Ms. Ochoa. Thank you.
    Senator Peters. Thank you, Mr. Chairman.
    Senator Lankford. Thank you.
    Ms. Ochoa, let me have a little more advanced conversation 
on the real property issue. We had a hearing on that just 
yesterday. It has been an ongoing issue. You had mentioned 
before we gave you a little bit of time to get up to speed on 
it. Heads up, I guess, from this Committee and the work of this 
Committee. It has been a central focus for 20 years, and it is 
unresolved for 20 years. So when we talk about stepping into 
it, there are a lot of ideas that are floating around. What we 
absolutely need is someone on the inside to say here is where 
the process breaks down, and these are the areas that need to 
be fixed and a set of recommendations for it. This is billions 
of dollars, and it is billions of dollars not only in 
maintenance and upkeep of facilities that are underutilized or 
unutilized at all, but also properties that should be in the 
private market that need to get off of our inventory entirely. 
So it the management of facilities that currently sit there; it 
is the transition out of other facilities.
    I spoke to someone in one of the agencies not long ago that 
said they just disposed of a property that took 20 years to 
dispose of, and it cost $22 million just in the disposal. That 
cannot continue to be replicated. We have to be better at this. 
And so it is one of those areas--I know several of us on the 
dais have talked about it. It will keep coming back to you as a 
major priority of how do we streamline the process of Federal 
property disposal when it is time to dispose of property.
    The other issue that has come up several times and you will 
continue to hear it is the distinction between a lease and buy. 
When the taxpayer is evaluating which one is better, they want 
to know which one is more efficient in the use of the Federal 
taxpayer dollar. When agencies look at it, they are looking at 
this year's budget and often lease is better for them than 
buying, because if they leased it, then they can build it into 
the budget, though it is going to cost a lot more over then 15 
years to the taxpayer, and it is a building we are going to 
hang on to for 30 years. We have to be able to hit that 
balance. A long-term look rather than just a 1-year focus will 
be an on going issue. Just to let you know that is going to be 
an ongoing issue that will keep coming back to you until we can 
find a way to get this resolved.
    The Office of Personnel Management--and this is not a 
hearing about them, but the recent announcement about what is 
happening in cybersecurity put a tremendous number of Federal 
employees and people in the Federal family at risk. It is very 
important that the IGs have a sense of independence and 
tenacity that, when they see critical risk areas, they have the 
communication with this Committee and with Congress and with 
the agency to not just write a report and assume it is done, 
but to wave the red flag until the bull comes and just to keep 
going on it.
    We will need at times your tenacity, because there will be 
moments where this is serious and this affects a lot of lives. 
Dollars matter. Lives are even more important. So when that 
time comes, our expectation would be that you would not turn in 
a report and wash your hands of it, but that you would beat on 
our door to make sure in all the clutter of all the things that 
are going on, someone's attention is grabbed to say this one is 
important. That report can wait until next week. This one needs 
to be today.
    So just know you will have that kind of report with us. Our 
door will be open to you. We have tremendous respect for the IG 
community and what they do for the taxpayer. But continue to 
press on some of those issues so it is not a report and over 
but it is an ongoing part of it.
    So with that, let me ask you one other question. Speaking 
with Michael Horowitz and others that you have already 
mentioned, they have done a very good job of maintaining 
independence and still maintaining a relationship. As you 
mentioned before, that dual role. The IG's role is not a 
``gotcha'' role to try to embarrass the agency. It is to help 
them fix the problem and to develop ideas on what to do and, in 
their busyness, to be able to resolve it.
    So with that, what steps would you recommend that you take 
and your office puts into place to make sure you maintain your 
independence, that when it is time to do something hard, you 
still have the independence to do it? So how do you put 
boundaries around yourself, I guess, to be able to make sure 
you maintain that independence?
    Ms. Ochoa. You are really asking how it is I can stay true 
to that mission, and in thinking about that, I think the best I 
can tell you is that for me it is all about knowing in my core 
that an IG's job is to be independent, and that if an IG 
compromises that independence, skews the results of a report 
for improper reasons, then that IG has utterly lost credibility 
with her own staff, has lost credibility with Congress, with 
the agency, and is no longer serving the purpose of the job. 
And so knowing that and messaging that to the staff at the GSA 
OIG is something that I take very seriously.
    Senator Lankford. OK. That is great.
    One other comment that I have and question, I guess, with 
that is the temptation at times that when you get into the 
inner workings of the machine of an agency, it is all about 
developing efficiency of the agency, and that is a benefit. You 
want it to be a great place to work, and you want people that 
are within the agency to have good morale. They know their 
voices are being heard, and they know things can get fixed 
within the agency. But if it is just about making the agency 
run smoother and not about protecting the taxpayer or the long-
term vision of it, then we have lost focus somewhat.
    So there is no way really to be able to answer this one way 
or the other, but I would just challenge you in the days ahead 
to have something built in place where, if the IG's role 
becomes more of us greasing the machine rather than actually 
helping solve the problems or helping protect the taxpayer, 
that there is a moment to be able to reset, there is a time to 
be able to evaluate it. Are we spending more time making the 
machine run better? Are we spending more time protecting the 
taxpayer and trying to solve long-term issues like the real 
property issues that remain unsolved for 20 years?
    So that is just one of those balance things, I would just 
encourage you in the days ahead, because it will be tough to be 
able to get into it.
    I think I am the final questioner. Chairman Johnson is 
trying to get here as well right now. He is coming over from 
another hearing. I would ask you, if you had final statements 
or final questions that you would have leaving us. We have 
already had your opening statement before, but if you have 
final comments on other issues, we would be pleased to be able 
to hear those.
    Ms. Ochoa. I appreciate that. I feel that with the meetings 
that I was afforded in advance of this hearing and with this 
hearing today, I really do not have any other questions for 
you. I really appreciate the time that has been taken, the 
speed with which this process proceeded from nomination to the 
hearing today, and the support that this Committee has 
strenuously given to the IG community. Thank you for that.
    Senator Lankford. Well, do not tell the other folks on the 
nomination process that this has been fast. You need to 
probably tell them it has been mercilessly slow. [Laughter.]
    Because they will be very jealous of the speed that this 
has come about. Our hope is that this sets a new precedent for 
how we are moving nominees, that when a nominee comes, 
especially as qualified as you are in the task, with the 
references that you have in this task, to be able to expedite 
that process and to be able to move quickly on it. So hopefully 
we can get that resolved. We have a few judges that are hanging 
out there and all kinds of other individuals that are in the 
flow that we need to get corrected quickly and get us back to 
work.
    So let me say thank you to your family. This is a tough 
journey for all of you as well to be able to watch this detail 
as it all unfolds, and so I appreciate your support through 
this journey. It is not fun. Fortunately, when the job is 
actually taken on, the job is lots of fun. So there is nothing 
more fun than the IG community, right? You deal with tender 
emotions and people who do not like to be challenged on the 
outside, but the job will actually be tougher than the 
nomination process in the days ahead. But that will be a 
different day.
    Hold on for just a moment.
    [Pause.]
    The Chairman is caught up, so I am not going to keep 
delaying for him on that.
    Ms. Ochoa has filed responses to biographical and financial 
questionnaires, answered prehearing questions submitted by the 
Committee, and had her financial statements reviewed by the 
Office of Government Ethics. Without objection, this 
information will be made a part of the hearing record, with the 
exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
    The hearing record will remain open until 5 p.m. tomorrow, 
June 18, 2015, for the submission of statements and questions 
for the record.
    Without any further questions, this hearing is adjourned.
    [Whereupon, at 2:55 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------         
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                              
                              


                                 <all>
</pre></body></html>
